                                                                             Report No. DODIG-2014-039




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              F E B RUA RY 1 2 , 2 0 1 4




                     Authorization of
                     DoD Progress Payments
                     For Ground Combat Vehicle
                     Contracts Needs Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Authorization of DoD Progress Payments For Ground
                                       Combat Vehicle Contracts Needs Improvement



February 12, 2014                                      Findings Continued

Objective                                              than were allowable under the FAR and increasing the
                                                       effective progress payment rate above the 80 percent FAR
We determined whether DoD officials                    threshold without proper approval. Additionally, ACC–Warren
authorized and administered progress                   PCOs did not request or obtain an adequate amount of
payments in DoD contracts in accordance                consideration. Using DoD guidance, the PCOs should have
with selected Federal Acquisition Regulation           requested at least an additional $1.3 million in consideration
(FAR) and DoD policies. We examined                    from the contractors.
progress payments for two contracts for the
Ground Combat Vehicle (GCV) Technology
Development Phase.
                                                       Recommendations
                                                       Among other recommendations, the Executive Director, U.S.
                                                       ACC–Warren, should:
Findings
                                                          •	 review and initiate contracting actions to ensure the
U.S. Army Contracting Command–Warren
                                                             GCV contracts comply with the FAR contract financing
(ACC–Warren)     procurement     contracting
                                                             requirements;
officers (PCOs) inappropriately permitted
unusual contract financing when they                      •	 issue internal guidance that prohibits the authorization
modified two GCV development contracts                       of contracts containing both progress payments and
with award values totaling $889.7 million.                   performance-based payments, and
The contract modifications authorized the
contractors to receive additional financing               •	 consider appropriate action against the PCOs, including
payments, although the contracts already                     requiring additional contracting officer training.
included customary progress payments.

In addition, the PCOs did not follow FAR
                                                       Management Comments
and DoD guidance when negotiating                      Comments from the Director, Defense Procurement and
consideration for the modifications. This              Acquisition Policy addressed all of the specifics of the
occurred because the PCOs misunderstood                recommendation. As a result of the Director’s comments,
the proper use and approval of contract                we are referring Recommendation 2 to the Director,
financing payments.  In one instance the PCO           Defense Pricing. Since the Director, Defense Procurement
disregarded advice from the administrative             and Acquisition Policy coordinated with the Director, Defense
contracting officer that the proposed                  Pricing to implement the recommendation we are not
contract actions did not comply with                   requesting additional comments. Comments from the Executive
the FAR.                                               Director, ACC–Warren, were generally responsive. However,
                                                       comments on Recommendations 1.d and 1.e did not adequately
As a result, ACC–Warren PCOs provided                  address the recommendations. Because the contract ends in
two DoD contractors the ability to obtain              less than six months, we do not request additional comments.
$110 million more in financing payments                Please see the Recommendations Table on the back of this page.



Visit us on the web at www.dodig.mil


                                                                 Report No. DODIG-2014-039 (Project No. D2013-D000DD-0135.000) │ i
                   Recommendations Table
                                                                                         No Additional
                                               Management                              Comments Required
                    Executive Director, U.S. Army Contracting Command–Warren    1.a, 1.b, 1.c, 1.d, 1.e
                    Director, Defense Procurement and Acquisition Policy,
                    Office of the Under Secretary of Defense for Acquisition,   2
                    Technology, and Logistics




ii │ Report No. DODIG-2014-039 (Project No. D2013-D000DD-0135.000)
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 February 12, 2014

MEMORANDUM FOR DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
               DIRECTOR, U.S. ARMY CONTRACTING COMMAND–WARREN

SUBJECT:	 Authorization of DoD Progress Payments For Ground Combat Vehicle
          Contracts Needs Improvement (Report No. DODIG-2014-039)

We are providing this report for information and    use. U.S. Army Contracting Command–Warren
contracting personnel provided DoD contractors      the ability to obtain $110 million more in
financing payments than were allowable under the    Federal Acquisition Regulation. This increased
the effective progress payment rate above the        80 percent Federal Acquisition Regulation
threshold without proper approval.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly.  Comments from the
Director, Defense Procurement and Acquisition Policy addressed all of the specifics of the
recommendation and we do not require additional comments. At the request of the Director,
Defense Procurement and Acquisition Policy, we redirected Recommendation 2 to the
Director, Defense Pricing. Since the Director, Defense Procurement and Acquisition Policy
coordinated with the Director, Defense Pricing to implement the recommendation we are not
requesting additional comments. Comments from the Executive Director, Army Contracting
Command–Warren, were generally responsive. However, comments on Recommendations 1.d
and 1.e did not adequately address the recommendations. Because the contract ends in less
than six  months, and comments from the Director, Defense Procurement and Acquisition
Policy, state that they will focus on future contracts, we do not request additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604‑8905.




	 Amy J. Frontz
	 Principal Assistant Inspector General
		 for Auditing




                                                                                    Report No. DODIG-2014-039 │ iii
                   Contents
                   Introduction
                   Objective__________________________________________________________________________________________1
                   Background ______________________________________________________________________________________1
                   Review of Internal Controls_____________________________________________________________________3

                   Finding. Improving the Authorization of Contract
                   Financing Payments _______________________________________________________________4
                   Authorization of Performance-Based Payments on the Ground Combat Vehicle
                   Contracts Was Not in Accordance With the Federal Acquisition Regulation _ ______________4
                   U.S. Army Contracting Command–Warren Contracting Personnel Misunderstood
                   or Disregarded Federal Acquisition Regulation Requirements_____________________________ 11
                   Excessive Contract Financing on the Ground Combat Vehicle Program___________________ 13
                   Recommendations, Management Comments, and Our Response__________________________ 17

                   Appendix
                   Scope and Methodology_______________________________________________________________________ 22
                         Use of Computer-Processed Data ______________________________________________________ 23
                         Use of Technical Assistance______________________________________________________________ 23
                         Prior Coverage____________________________________________________________________________ 23

                   Management Comments_____________________________________________________ 24
                   Defense Procurement and Acquisition Policy________________________________________________ 24
                   U.S. Army Contracting Command–Warren___________________________________________________ 25

                   Acronyms and Abbreviations______________________________________________ 35




iv │ Report No. DODIG-2014-039
                                                                                          Introduction




Introduction
Objective
Our initial announced objective was to determine whether DoD officials authorized
and administered progress payments in DoD contracts in accordance with selected
Federal Acquisition Regulation (FAR) and DoD policies. During the course of the audit,
we found significant issues related to the authorization of contract financing for the
Ground Combat Vehicle (GCV) development contracts. As a result, we modified the
audit objective to determine whether DoD officials complied with selected FAR
and Defense Federal Acquisition Regulation Supplement Subpart (DFARS) clauses
for progress payments awarded for the GCV Technology Development Phase.
In the future, we may announce additional audits of DoD progress payment topics.
See the Appendix for a discussion of our scope and methodology.


Background
The Government can provide contract financing to contractors before it accepts the
supplies or services.  FAR Part 32, “Contract Financing,” prescribes the policies and
procedures for providing contract financing payments and provides the rationale for
contract financing.  Specifically, FAR 32.104, “Providing contract financing,” states
that prudent contract financing can expedite the performance of essential contracts.
FAR 32.104 further states that contracting officers should only provide financing to
the extent needed for prompt and efficient performance.


Customary Contract Financing
The FAR allows for several types of customary contract financing.       FAR Part 32
defines customary contract financing as financing deemed for routine use by
contracting officers, without specific reviews or higher management approvals.
Two types of customary contract financing are progress payments based on costs and
performance-based payments (PBP).

FAR Subpart 32.5 states that the customary rate for progress payments based on
costs for a large business is 80 percent and is applicable to the total costs of
performing the contract. FAR Subpart 32.10, “Performance-Based Payments,”
states that PBPs are the preferred Government financing method and are based on
specifically defined events or some measurable criterion of performance.  FAR 32.113,
“Customary contract financing,” specifically states that progress payments or PBPs
may be used for contract financing, but not both.



                                                                             Report No. DODIG-2014-039 │ 1
Introduction



                  FAR 32.005, “Consideration for contract financing,” and the April 27, 2011, Office
                  of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
                  Defense Procurement and Acquisition Policy (DPAP) guidance, “Cash Flow Tool for
                  Evaluating Alternative Financing Arrangements,” require the contracting officer to
                  obtain adequate consideration for a change in contract financing. Specifically,
                  FAR 32.005 requires that contracting officers obtain and document that the
                  Government receive adequate consideration for the additional financing awarded
                  after the initiation of the contract. Further, the DPAP issued additional guidance to the
                  contracting officer on how to calculate consideration.


                  Unusual Contract Financing
                  According to FAR 32.114, “Unusual contract financing,” a contract financing
                  arrangement that deviates from FAR Part 32 is unusual and shall be authorized only
                  after approval by the head of the agency or as provided for in agency regulations.
                  FAR 32.501-2, “Unusual progress payments,” allows unusual progress payment rates
                  if the:
                                •	 contract necessitates predelivery expenditures that are large in relation
                                  to contract price and the contractor’s working capital;

                                •	 contractor fully documents an actual need to supplement private financing;

                                •	 contractor’s request is approved by the head of the contracting activity; and

                                •	 unusual progress payment rate approved beyond the customary progress
                                  payment rate is the lowest amount possible under the circumstances.

                  DFARS and Procedures, Guidance, and Information (PGI) 232.501-2, “Unusual
                  progress payments,” specifically require the procurement contracting officer
                  (PCO) to obtain approval from the Director of DPAP for unusual progress payment
                  financing. Further, DFARS 232.070, “Responsibilities,” states that the DPAP Director
                  is responsible for ensuring uniform administration of DoD contract financing.
                  Therefore, other DoD departments and agencies should submit unusual contract
                  financing proposals to that office for approval.


                  GCV Developmental Contracts
                  The Army established the GCV development program to replace the Bradley
                  Fighting Vehicle. On August 18, 2011, the PCO from the U.S. Army Contracting
                  Command–Warren, Michigan site (ACC–Warren) awarded two contracts with a
                  24-month period of performance for the GCV Technology Development Phase.




2 │ Report No. DODIG-2014-039
                                                                                          Introduction



Specifically, the PCO awarded contract W56HZV-11-C-C001 to BAE Systems Land
and Armaments (BAE) for $449,964,969 and contract W56HZV-11-C-C002 to
General Dynamics Land Systems Inc. (GDLS) for $439,713,950. According to an
Army sponsored website, the purpose of the GCV Technology Development Phase
is to reduce risk of entering into the Engineering and Manufacturing Development
Phase while developing an efficient and effective preliminary design. When awarded,
both of these contracts included the option for the contractor to request monthly
progress payments based on costs.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls.  We identified internal
control weaknesses in the authorization of progress payment contracts as defined
by DoD Instruction 5010.40. Specifically, ACC–Warren officials did not have
adequate controls to verify that their contracting personnel authorized contract
financing to DoD contractors in accordance with FAR Subpart 32.5 and
DFARS Subpart 232.5.      We will provide a copy of the final report to the senior
official responsible for internal controls in ACC–Warren.




                                                                             Report No. DODIG-2014-039 │ 3
Finding




                  Finding
                  Improving the Authorization of Contract
                  Financing Payments
                  ACC–Warren PCOs inappropriately permitted unusual contract financing when
                  they modified two GCV development contracts with award values totaling
                  $889.7  million. The contract modifications authorized the contractors to receive
                  additional financing although the contracts already included customary progress
                  payments.     In addition, the PCOs did not follow FAR 32.005 and DPAP guidance
                  when negotiating consideration for the modifications. This occurred because the
                  PCOs misunderstood the proper use and approval of contract financing payments
                  and the procedures for calculating consideration needed to compensate DoD for the
                  increase in contract financing. In one contract, the PCO disregarded advice from the
                  Defense Contract Management Agency administrative contracting officer that the
                  PCO’s proposed actions did not comply with the FAR.

                  As a result, ACC–Warren PCOs provided BAE and GDLS the ability to obtain
                  $110  million more in financing payments than were allowable under the FAR.
                  This increased the effective progress payment rate above the 80 percent FAR
                  threshold without proper approval.  Additionally, ACC–Warren PCOs did not request
                  or obtain an adequate amount of consideration as specified in FAR 32.005 and
                  DPAP guidance.  Using the DPAP guidance, the PCOs should have requested at least
                  an additional $1.3 million in consideration from the contractors.



                  Authorization of Performance-Based Payments on
                  the Ground Combat Vehicle Contracts Was Not in
                  Accordance With the Federal Acquisition Regulation
                  ACC–Warren      PCOs    inappropriately    permitted     unusual    contract   financing
                  when they modified two GCV contracts valued at $889.7 million. The contract
                  modifications authorized the contractors to receive additional financing although
                  the contracts already included customary progress payments at 80 percent of costs.
                  Total progress payments for both contracts were originally estimated to be
                  $640.3  million. FAR 32.113 states customary contract financing includes progress
                  payments or PBPs, but not both. Therefore, when the PCOs established the
                  additional contract financing, they did not use customary contract financing
                  payments and did not comply with FAR 32.113.



4 │ Report No. DODIG-2014-039
                                                                                                Finding



By approving both progress payments and the additional financing, these
contracts established unusual contract financing arrangements, which require that
the PCO obtain advance approval from the DPAP Director in accordance with
FAR 32.114 and DFARS PGI 232.501-2.

The ACC–Warren PCOs did not obtain this approval. We discussed the PCO actions
with DPAP personnel and they stated that they were unaware that these contract
actions had occurred.

In addition, DFARS 232.070, “Responsibilities,” states it is DoD policy to attain
uniformity with all contract financing to protect DoD from authorizing inappropriate
contract financing. Specifically, the DPAP Director is responsible for ensuring
contract financing uniformity.


Procurement Contracting Officer Contract Financing Actions
Since August 2011, the PCO for the GCV development program made five significant
decisions related to contract financing, of which three were not appropriate. The
following chain of events provides a detailed description of the PCO’s contract
financing decisions, as well as an analysis as to whether the decisions complied with
FAR and DFARS criteria:

August 18, 2011, Decision to Authorize Progress Payment Financing Complies
with FAR Usual Financing Requirements.  The PCO awarded both GCV development
program contracts with the progress payment financing clause FAR 52.232-13,
“Notice of Progress Payments,” authorizing a progress payment financing rate of
80 percent.  The PCO stated he determined it was in the Government’s best interest
to award progress payments because it increased the potential pool of companies
that could participate, increased the likelihood of success for a GCV design, and
still held back enough funding to motivate the contractor to perform to completion.
He also stated the Office of the Under Secretary of Defense (OSD), specifically
DPAP, approved this decision through the peer review process.

This decision was permissible under FAR 32.113, which states that the contracting
officer may award usual contract financing (which includes progress payments based
on costs) in contracts.




                                                                             Report No. DODIG-2014-039 │ 5
Finding



                  April 5, 2012, Memorandum Denying Request
                  for PBPs Was Acceptable Per FAR Requirements.                    ...the PCO
                  The PCO issued a memorandum to GDLS rejecting                stated the “short
                  its February 28, 2012, request for PBPs, stating         period of performance
                                                                             for the program and
                  that switching to a PBP plan was not in the               the key deliverables...
                  Government’s best interest.  Specifically, the PCO      make it difficult to assess
                  stated the “short period of performance for the         appropriate performance
                                                                                based payment
                  program and the key deliverables being delivered
                                                                                  amounts...”
                  toward the end of the contract make it difficult to
                  assess appropriate performance based payment amounts
                  against any interim performance activities or deliverables that,
                  individually or collectively, do not represent the value or benefit to the Government
                  that GDLS has proposed.” Two of the contractor requested PBP events the PCO
                  rejected were the Systems Functional Review and the Preliminary Design Review.

                  The PCO’s rationale was consistent with FAR Subpart 32.10, which states that
                  the contracting officer should award PBPs only when the performance can be
                  measured by objective and quantifiable methods.

                  September 6, 2012, Modification Award to GDLS Deviated from FAR
                  Requirements and Peer Review. On June 11, 2012, GDLS requested that the
                  PCO consider a revised plan identified as a “Progress Payment Deliverable Plan.”
                  GDLS requested the PCO to consider this revised financing plan, and GDLS stated
                  that it was concerned about its “negative cash flow.” As a result, the PCO issued
                  modification P00011 to the GDLS contract that authorized the current customary
                  progress payments be supplemented with additional financing payments for the
                  successful completion of the Systems Functional Review, the Preliminary Design
                  Review, and the end of the period of performance. The Systems Functional Review
                  and Preliminary Design Review were included in the original GDLS contract under
                  the Contract Data Requirements List, which was a “not separately priced” contract
                  line item. The modification stated that its purpose was to establish “a change to
                  the current contract financing arrangement” and also included a payment plan for
                  event completion to incorporate the terms and conditions of the additional financing
                  payments. Documents provided by ACC–Warren contracting personnel referred
                  to the additional financing payments as a “Performance Based Payment scheme.”

                  This modification was not in accordance with FAR 32.113. It also was not in line with
                  the OSD peer review approval to award the GCV contracts, which originally
                  included customary progress payments, and the April 5, 2012, memorandum that



6 │ Report No. DODIG-2014-039
                                                                                                     Finding



stated   performance     events   did   not   represent    value   or   benefit   to    the
Government. Additionally, the PCO did not follow the FAR 32.104 requirement that
the PCO provide financing only to the extent necessary for successful contract
completion.  Finally, the PCO actions did not adequately follow FAR 32.005 and the
April 27, 2011, DPAP guidance to obtain adequate consideration. The following is a
detailed summary of the criteria the PCO did not follow when he awarded
this modification.

Compliance with FAR 32.113 Requirements Needed.
The additional financing authorized by modification
                                                                    All internal
P00011 deviated from the FAR 32.113 requirement                    Government
for usual contract financing. Specifically, FAR             documentation and the
32.113 states that usual contract financing               GDLS request clearly identify
                                                          that this modification would
cannot    include     progress    payments    and
                                                            add performance‑based
PBPs on the same contract at the same time.                   events in addition to
All internal Government documentation and                       the usual progress
the GDLS request clearly identify that this                         payments...
modification would add performance-based events
in addition to the usual progress payments, and the
modification included wording that the events were additional
contract financing.

Before approving the contract modification, the PCO needed to comply with the FAR
and DFARS requirements for unusual contract financing. Both the FAR and DFARS
require contracting officers to obtain approval from DPAP before awarding
unusual contract financing. However, the PCO did not obtain the required advanced
approval from DPAP.

PCO Changes Subsequent to the OSD Peer Review and April 5, 2012,
Memorandum. The PCO significantly changed the contract terms after the OSD
peer review process without obtaining additional approval for the modification
from OSD. The PCO also changed his decision contained in the April 5, 2012,
memorandum in which he initially rejected performance events that were ultimately
included in modification P00011 because key deliverables made it difficult to assess
appropriate PBP amounts. The PCO did not explain why the Government’s contract
financing positions expressed in the April 5, 2012, memorandum were no longer valid.

FAR 32.104 Requirements Were Not Followed. The PCO’s records did not include
support that GDLS demonstrated a need for additional contract financing as required
by FAR 32.104. FAR 32.104 states the contracting officer must provide Government



                                                                                  Report No. DODIG-2014-039 │ 7
Finding



                  financing only to the extent actually needed for prompt and efficient performance.
                  In a June 11, 2012, memorandum, GDLS requested additional contract financing
                  because of concerns with the “negative cash flow” related to the GCV development
                  contract. However, the PCO’s records did not include support that the GDLS
                  “negative cash flow” would have impacted the successful completion of the contract
                  or created a financial consequence that was any different from other contracts with
                  customary progress payments—as the Government only pays 80 percent of costs
                  and the contractor must carry the remaining 20 percent of costs until it delivers
                  the contract end items.  Specifically, based on the target contract cost amount, the
                  maximum contractor-carried incurred costs at the end of the GDLS contract would be
                  $76.0 million (calculated as 20 percent of the contract target cost of $380.2 million).
                  However, this $76.0 million is not the amount of unfinanced costs the contractor
                  would carry through the entire contract, since the unfinanced contractor costs
                  increase to this amount throughout the life of the contract. For example, at the
                  time of modification P00011, the GDLS progress payment request showed that
                  GDLS had incurred $52.0 million of allowable contract costs and had been paid
                  using the contractual 80 percent. This resulted in GDLS carrying $10.4 million
                  of incurred contract costs. The PCO did not document why GDLS, one of the fiscal
                  year 2012 top five DoD contractors in dollars obligated according to the Federal
                  Procurement Data System website, could not obtain private financing for the 20 percent
                  of unpaid costs. See Table 1 for an example of the amount of carrying costs GDLS
                  could have at contract end and reported having as of September 2012.

                  Table 1. Analysis of GDLS Unpaid Incurred Costs (millions)
                                               Total Maximum                                          Amount of
                                                                    Eligible Total Progress
                                             Estimated Incurred                                  Contractors Unpaid
                     Target Contract Cost                            Payment Costs as of
                                            Costs Carried Through                                Incurred Costs as of
                                                                     September 5, 2012
                                               End of Contract                                    September 5, 2012
                            $380.2                 $76.0                    $52.0                       $10.4


                                                  Compliance with FAR 32.005 and the April 27, 2011,
                                  The
                                                      DPAP Guidance Needed.  The PCO did not follow
                               PCO did
                          not... obtain and            FAR 32.005, which requires that he obtain and
                         document that the               document that the Government received adequate
                       Government received                 consideration     for    the       additional    financing
                     adequate consideration for
                      the additional financing             awarded after the initiation of the contract. In
                         awarded after the               addition, the PCO did not follow DPAP guidance
                          initiation of the            that requires DoD contracting officials to calculate
                              contract.
                                                     consideration at no less than a 2 percent interest rate.




8 │ Report No. DODIG-2014-039
                                                                                                                                  Finding



In an attempt to obtain adequate consideration, the PCO used a 0.25 percent
interest rate, which was far below the minimum 2 percent required by DPAP
guidance and did not calculate the amount of time used for carrying (interest) costs
appropriately.  The PCO stated the Government received additional work concurrent
with the change in financing, and the additional work approximated the value of
the consideration that he calculated. Internal ACC–Warren memorandums show the
additional work included the contractor allowing Government representatives to
attend subcontractor program management reviews and the Government received
additional status reports and assessments on the GCV program.

December 5, 2012, Modification Award to BAE
                                                                                                  The
Deviated from FAR Requirements.  The PCO1 issued
                                                                                             PCO awarded
modification P00014 on the BAE contract, which                                             this modification
included identical language as modification P00011                                       despite no indication
on the GDLS contract with one exception.  Specifically,                                      that contract
                                                                                          completion was at
modification P00014 on the BAE contract did not
                                                                                          risk due to a cash
include the end of the period of performance as a                                            flow concern.
specific performance event.  The liquidation events added
in modification P00014 were included in the original BAE
contract under the Contract Data Requirements List, which was a “not separately
priced” contract line item. ACC–Warren documents for this modification also stated
the additional financing was a “Performance Based Payment scheme.”                                            The PCO
awarded this modification despite no indication that contract completion was at risk
due to a cash flow concern. Specifically, a September 7, 2012, memorandum from
BAE stated the alternate payment terms will positively impact BAE’s cash flow.

Because this modification was the same as the GDLS modification, it also was not
in accordance with FAR 32.113 and was not in line with either the OSD peer
review approval to award the GCV contracts, which originally included customary
progress payments, or the April 5, 2012, memorandum which stated performance
events did not represent value or benefit to the Government. Finally, the PCO did
not follow the FAR 32.104 requirement that the PCO only provide financing to
the extent necessary for successful contract completion, nor the FAR 32.005 and
April 27, 2011, DPAP guidance to obtain adequate consideration.




	1	
      The original PCO was replaced by a new PCO for both contracts between the August and December modifications.




                                                                                                               Report No. DODIG-2014-039 │ 9
Finding



                  Table 2 shows the potential amount of unfinanced incurred costs BAE may need to
                  carry through the end of contract, and unfinanced costs that had accumulated at
                  the time of this modification.

                  Table 2. Analysis of BAE Unpaid Incurred Costs (millions)
                                                       Total Maximum                                                   Amount of
                                                                                   Eligible Total Progress
                                                     Estimated Incurred                                            Contractors Unpaid
                     Target Contract Cost                                           Payment Costs as of
                                                    Costs Carried Through                                          Incurred Costs as of
                                                                                    November 29, 2012
                                                       End of Contract                                             November 29, 2012
                               $420.2                         $84.0                         $125.3                         $25.1


                  Modification P00021 for the GDLS and BAE Contracts Did Not Comply with
                  the FAR. The PCO issued modification P00021 on May 28, 2013, to GDLS and to
                  BAE on June 7, 2013.2 The modifications described the financing events identified
                  in previous contract modifications as deliverables in section B of the contracts.
                  The modifications specifically established a narrative
                  statement identifying future payment for completion                                          The
                  of events under one contract line item number                                           modifications
                  in the contract. The modifications did not                                           did not change the
                                                                                                     original delivery items
                  increase the quantity of deliverables identified
                                                                                                     established in the basic
                  in section B of the contract, but instead                                         contracts, although they
                  increased the number of PBP events. The                                          enabled the contractors to
                  additional PBP events added in modification                                       obtain DoD funds sooner
                                                                                                   than if the contracts solely
                  P00021 were included in the original GCV                                             provided progress
                  contracts under the Contract Data Requirements                                            payments.
                  List, which were “not separately priced” contract
                  line items. The modifications did not change the
                  original delivery items established in the basic contracts, although they enabled
                  the contractors to obtain DoD funds sooner than if the contracts solely provided
                  progress payments.               The PCO issued the modification to BAE subsequent to the
                  audit team notifying her that the contract actions were not compliant with the FAR.

                  The issuance of modification P00021 on the BAE and GDLS contracts continued the
                  noncompliance with FAR 32.113 because the contracts continued to include both
                  progress payments and PBPs. In addition, the modifications were not in compliance
                  with DFARS 204.71, “Uniform Contract Line Item Numbering System,” which
                  describes         how      a    contracting         officer     should      create      a    contract       deliverable.


                  	2	
                        The issuances of modification P00021 were separate actions taken on the GDLS and BAE contracts despite having the same
                        contract modification number.




10 │ Report No. DODIG-2014-039
                                                                                                 Finding



DFARS 204.7106, “Contract modifications,” states that if new items are added
through a contract modification, the contracting officer is required to create a new
line item or identify new items under existing contract line item numbers. However,
the PCO did not establish new line items or change the number of deliverables under
the one contract line item number. Specifically, the PCO established a narrative in
section B of the modifications identifying the PBP events as deliverables but did
not assign new line item numbers or increase the number of deliverables under the
existing contract line item for each event.

Further, when negotiating modifications P00021 for both contracts, the PCOs did
not comply with FAR 32.005 and DPAP guidance when they did not calculate any
new consideration that would compensate the Government for a change in contract
financing. The additional contract financing shifted the levels of investment that the
contractors and ACC–Warren shared on the contracts, so that the contractors had less
financial risk and the Government more. The Army and the U.S. Treasury bore the
additional costs for these modifications.


U.S. Army Contracting Command–Warren Contracting
Personnel Misunderstood or Disregarded Federal
Acquisition Regulation Requirements
The PCOs either did not understand the proper use and approval of contract
financing, or disregarded key FAR contract financing guidance. Specifically, both
PCOs stated they did not consider the additional financing payments to be unusual
contract financing payments. Instead, all internal ACC–Warren documents called
the extra events PBPs and the modifications referred to the revisions as additional
financing, the PCOs stated that they never intended the events to be additional
financing. The PCOs stated the events were actually contract deliverables with a
discrete price. The PCOs believed they only erred by using the financing and PBP
wording choices. Therefore, the PCOs stated they did not obtain the approval for
unusual financing required by FAR 32.114 and DFARS PGI 232.501-2 because they
did not believe they were providing unusual financing. They could not explain why
they used the financing and PBP wording originally, and then later determined
it was in error. However, based on the evidence the ACC–Warren PCOs provided,
including comparison of the original contract terms to the modification, the
modifications on the two contracts most closely exhibited payments for specific
performance events, as opposed to distinct deliverables; and therefore, the payments
represented PBPs.




                                                                             Report No. DODIG-2014-039 │ 11
Finding



                  In addition, the PCO who calculated the consideration for the modified GDLS
                  financing terms stated he could not find any guidance on how to determine
                  consideration, and therefore stated he used the Treasury bill rate of 0.25 percent
                  to calculate the consideration. The PCO should have calculated the consideration
                  using guidance contained in FAR 32.005 and the DPAP guidance. In the future,
                  ACC–Warren should ensure that all PCOs are aware of the DPAP cash flow tool
                  that requires contracting officers to calculate consideration and verify that
                  they are using the tool as intended when modifying contract financing terms.

                                                      During the coordination of modification P00014
                                      The                to the BAE contract, the PCO disregarded
                                 administrative
                               contracting officer         advice from the Defense Contract Management
                         provided the PCO an e-mail,         Agency administrative contracting officer
                          dated November 14, 2012,            that the PCO’s proposed actions did not
                         stating the BAE modification
                                                               comply with the FAR. The PCO’s actions
                        P00014 was not in compliance
                        with the FAR because progress          in issuing modification P00014 included
                        payments and PBPs cannot be           adding payment events for the successful
                           used simultaneously on a          completion of the Systems Functional
                               contract. The PCO
                              ignored the e-mail.           Review and Preliminary Design Review, while
                                                         continuing customary progress payments. The
                                                    administrative contracting officer provided the
                                            PCO an e-mail, dated November 14, 2012, stating the
                  BAE modification P00014 was not in compliance with the FAR because progress
                  payments and PBPs cannot be used simultaneously on a contract. The PCO ignored
                  the e-mail. In response to questions during the audit, the PCO stated she awarded
                  modification P00014 because GDLS had already received the additional financing
                  and it was only “fair” for BAE to have the same competitive edge. The PCO could
                  not explain how an additional inappropriate modification on the second contract
                  complied with the FAR.

                  In a follow-up discussion with the ACC–Warren PCO regarding the issuance of
                  modifications P00011 and P00014, she stated the wording associated with the
                  modifications identifying each as a “Performance Based Payment scheme” had
                  been incorrect. She also stated that they were in the process of issuing a
                  modification to identify additional PBP events as contract deliverables, as well as




12 │ Report No. DODIG-2014-039
                                                                                                 Finding



including more performance events. The audit team informed the current PCO and
her supervisor that a modification to include more PBP events (and associated
payments) and call them deliverables was not in compliance with the FAR. Despite
the information from the audit team, ACC–Warren contracting personnel planned to
continue modifying the contracts and thereby provide excessive contract financing
payments to the contractors without proper authorization. The PCO stated that
the contractors requested the modification so they could obtain more cash flow.
As discussed above, on May 28 and June 7, 2013, the PCO subsequently signed a
modification for the GDLS and BAE contracts, respectively, which stated the PBP
events should be considered contract deliverables and also added more PBP events
to the contract. However, despite the modification statement, the modifications
did not change the actual contract deliverables, contract price, or the contract
end dates. In addition, the modifications conflicted with the PCO’s decision on
April 5, 2012, to reject additional contract financing and the administrative
contracting officer’s concern that the PCO’s proposed actions did not comply with
the FAR.

ACC–Warren should issue internal guidance specifically prohibiting the contracting
officers from including both progress payments and PBP events in the same
contract. They should also provide additional training to contracting officers on what
the FAR and DFARS requirements are for progress payments and PBPs, as well as
how to adequately calculate consideration.     In addition, the Executive Director of
ACC–Warren should perform a review of the actions of the PCOs that provided
inappropriate financing to contractors for inadequate consideration to the Army,
increased costs to the Army and U.S. Treasury for providing the financing; and, as
appropriate, initiate corrective measures and actions to hold personnel accountable.

DPAP should perform a review of the contracts to verify that the contract terms
were changed so that the contractors receive only the financing needed.


Excessive Contract Financing on the Ground Combat
Vehicle Program
Through the series of contract modifications, ACC–Warren PCOs provided BAE and
GDLS the ability to obtain an additional $110 million in contract financing
prematurely without proper authorization, and thereby increased the effective
progress payment rate to more than 80 percent of the contractor’s incurred costs




                                                                             Report No. DODIG-2014-039 │ 13
Finding



                  allowable under FAR Subpart 32.5. In addition, the PCOs did not request or obtain
                  an adequate amount of consideration as specified in FAR 32.005 and DPAP
                  guidance. Specifically, the PCOs should have requested at least an additional
                  $1.3 million in consideration from the contractors.

                  Additional       Contract     Financing      Issued   Prematurely.
                  When awarding the original GCV development program                             ...ACC–
                                                                                             Warren PCOs
                  contracts to BAE and GDLS, ACC–Warren PCOs
                                                                                             subsequently
                  permitted the contractors to obtain 80 percent of                         authorized the
                  their contract costs through the usual progress                        contractors to receive
                                                                                            $110 million of
                  payment        financing.     However,    ACC–Warren     PCOs
                                                                                              additional
                  subsequently authorized the contractors to receive                           financing.
                  $110 million of additional financing.  FAR 32.104 required
                  that contracting officers must provide Government financing
                  only to the extent actually needed. The FAR also discourages the use of unusual
                  contract financing. Specifically, FAR 32.106, “Order of preference,” states that
                  unusual contract financing and advance payments are the least preferred methods
                  of contract financing. Because they did not determine contractor need or obtain
                  the required level of approval, ACC–Warren acted prematurely and without an
                  established factual basis. Additionally, these actions were contrary to FAR 32.114
                  and DFARS PGI 232.501-2, which require further coordination and approval
                  before additional financing can be approved. Table 3 breaks out the $110 million
                  of additional financing.

                  Table 3. Additional Financing Provided by Contract Modification (millions)
                    Performance Event                      BAE Value        GDLS Value            Event Totals
                    Systems Functional Review              $11.3              $15.9                 $27.2
                    Preliminary Design Review               42.4               40.4                  82.8
                      Total                                $53.7              $56.3                $110.0


                  Effective Progress Payment Rate Was Increased. The additional contract financing
                  increased the effective progress payment rate above the usual rate of 80 percent.
                  FAR 32.104 required that contracting officers must provide Government financing
                  only to the extent actually needed. Because they did not determine contractor need




14 │ Report No. DODIG-2014-039
                                                                                                  Finding



or obtain the required level of approval, ACC–Warren acted prematurely and without
an established factual basis.  Additionally, these actions were contrary to FAR 32.114
and DFARS PGI 232.501-2, which require further coordination and approval before
additional financing can be approved. The FAR also discourages the use of unusual
contract financing. Specifically, FAR 32.106, “Order of preference,” states that
unusual contract financing and advance payments are the least preferred methods
of contract financing.

ACC–Warren’s additional financing payments to the
contract increased the effective progress payment              According to the
rate.   FAR    32.501-1,     “Customary       progress      contractors’ incurred
payment rates,” states the customary progress                costs... ACC–Warren
                                                            contracting personnel
payment rate is 80 percent of total applicable
                                                         provided BAE 87.22 percent
costs of the contract. Once ACC–Warren PCOs               and GDLS 99.96 percent of
authorized    the   two    contractors   to   receive      their total costs to date
additional financing in addition to progress               when they paid the first
                                                                  PBP event.
payments, they increased the effective progress
payment rate above the 80 percent limit. We used
information in the progress payment requests associated
with the GCV contracts to calculate the effective progress payment rate that
ACC–Warren authorized. According to the contractors’ incurred costs reported on
the progress payment requests (and subsequent to the first PBP disbursement),
ACC–Warren contracting personnel provided BAE 87.22 percent and GDLS
99.96 percent of their total costs to date when they paid the first PBP event.
These percentages far exceeded the customary progress payment threshold
established in FAR 32.501-1. Before the first additional financing payments, the
rate for both contracts was the customary progress payment rate of 80 percent.




                                                                              Report No. DODIG-2014-039 │ 15
Finding



                  Because the additional financing was a set dollar value for each event, the effective
                  progress payment percentage fluctuated based on the contractor’s current
                  incurred costs. Tables 4 and 5 show that the effective progress payment rates
                  increased above 80 percent after the initial PBP disbursement, and that the
                  effective progress payment rate will decrease in subsequent months.

                  Table 4. Increased Contract Financing Rate for BAE After Paying the First PBP
                  Event (millions)
                      Shipment                                         Additional
                                      Contractor     80 Percent                           Total         Percent of
                       Number                                            PBP Net
                                        Cost          of Cost                           Costs Paid     Cost Financed
                      after PBP                                       Disbursement
                                         ($)             ($)                               ($)          after PBPs
                    Disbursement                                           ($)
                       PPRA0012         156.6             125.3              11.3           136.6         87.22*
                       PPRA0013         172.3             137.8              11.3           149.1         86.57*
                  *The sum does not total due to rounding.


                  Table 5. Increased Contract Financing Rate for GDLS After Paying the First PBP
                  Event (millions)
                      Shipment                                         Additional
                                      Contractor     80 Percent                           Total         Percent of
                       Number                                            PBP Net
                                        Cost          of Cost                           Costs Paid     Cost Financed
                      after PBP                                       Disbursement
                                         ($)             ($)                               ($)          after PBPs
                    Disbursement                                           ($)
                       PPRA0012          79.7              63.8              15.9           79.7          99.96*
                       PPRA0013         102.9              82.3              15.9           98.2          95.47*
                  *The sum does not total due to rounding.


                  Adequate Consideration Was Not Obtained. ACC–Warren
                  PCOs did not request or obtain adequate consideration                            ...using
                                                                                                  the DPAP
                  when modifying contract financing terms after contract
                                                                                                guidance, the
                  award. FAR 32.005 states when modifying contract                            PCOs should have
                  financing terms after contract award the contractor                         negotiated at least
                  may provide new consideration by monetary or                                  $1,463,898 in
                                                                                                consideration.
                  nonmonetary means provided the value is adequate.
                  ACC–Warren         PCOs    chose    to      request    nonmonetary
                  consideration using a calculation of the interest cost of the
                  additional financing. However, ACC–Warren PCOs did not receive adequate
                  consideration for the additional contract financing because they used the
                  0.25 percent Treasury bill rate and not the minimum 2 percent rate
                  established by DPAP guidance. As a result, ACC–Warren PCOs received only
                  $171,476 in consideration in exchange for providing the two contractors
                  an    additional    $110      million      in   contract     financing.   However,     using      the



16 │ Report No. DODIG-2014-039
                                                                                                     Finding



DPAP guidance, the PCOs should have negotiated at
least $1,463,898 in consideration. By not calculating               ...modifications
the consideration in accordance with the DPAP                       P00021 allowed
guidance, the PCOs did not negotiate an additional                 the contractors to
                                                                  receive part of the
$1,292,422    in    consideration   to    compensate      the
                                                                    $110 million in
Government for providing the additional contract                 additional financing...
financing    to    the   contractors.    For   example,    the         four months
ACC–Warren PCOs could have negotiated a reduced                          sooner.
contract price, additional contract performance, or earlier
delivery with the benefit valued at $1,292,422. In addition, had the PCOs negotiated
a lower contract price, additional funds may have been available to ACC–Warren for
other use. Further, ACC–Warren PCOs did not request or obtain consideration when
issuing contract modification P00021 on both contracts, which further changed
the contract financing terms. Specifically, modifications P00021 allowed the
contractors to receive part of the $110 million in additional financing authorized
in modification P00011 and P00014 four months sooner. The PCO did not request
or obtain consideration for these actions.

Since ACC–Warren contracting personnel provided BAE and GDLS additional
financing that exceeded established FAR thresholds, did not comply with
FAR 32.104, and did not obtain approval through higher authorities, ACC–Warren
should take appropriate actions to remedy the improper events that have occurred.


Recommendations, Management Comments, and
Our Response
Redirected Recommendation
As a result of management comments, we redirected Recommendation 2 to the
Director, Defense Pricing, because the Director, Defense Procurement and Acquisition
Policy, stated the Director, Defense Pricing, is responsible for overseeing the
complete renovation of DoD’s pricing capability.

      1.	    We recommend that the Executive Director, U.S. Army Contracting
             Command–Warren:

             a.	Issue internal guidance that prohibits the authorization of
                  contracts containing both progress payments and PBPs as
                  contract financing to the contractor unless unusual contract
                  financing procedures are followed.




                                                                                 Report No. DODIG-2014-039 │ 17
Finding



                                 b.	 Provide training to contracting officials on what the FAR and
                                   DFARS requirements are for contract financing (including progress
                                   payments and PBPs), consideration for contract financing, and the
                                   establishment of contract deliverables.

                                 c.	 Perform a review of the actions of the PCOs that provided
                                   inappropriate financing to contractors for inadequate consideration
                                   to the Army, increased costs to the Army and U.S. Treasury for
                                   providing the financing; and, as appropriate, initiate corrective
                                   measures and actions to hold personnel accountable.


                  Army Contracting Command–Warren Comments
                  The     Executive   Director,   Army   Contracting    Command–Warren   agreed   with
                  Recommendations 1.a, 1.b, and 1.c and stated that his office will complete the
                  recommendations by June 30, 2014. Specifically, ACC–Warren personnel will
                  issue additional guidance advising its contracting officials that awarding contracts
                  containing both progress payments and PBPs as contract financing are prohibited,
                  unless they follow the unusual contract financing procedures. In addition, the
                  Executive Director will institute mandatory face-to-face training for all contracting
                  officers and contract specialists on FAR and DFARS requirements and how they
                  relate to contract financing, consideration for contract financing, and the
                  establishment of contract deliverables. Further, the Executive Director stated that
                  his office will initiate a review of the contracting official’s decisions related to
                  inadequate consideration to the Army, increased costs to the Army and U.S.
                  Treasury, and as appropriate, initiate administrative actions.


                  Our Response
                  Comments from the Executive Director, Army Contracting Command–Warren
                  on Recommendations 1.a, 1.b, and 1.c addressed all of the specifics of the
                  recommendations, and no additional comments are required. Although the Director
                  agreed with the recommendations, the Director continued to identify the payments
                  as deliverables and stated they are not additional contract financing payments,
                  as evidenced by his response to Recommendation 1.d. For these reasons, there is
                  a risk that the actions taken by the Director in response to Recommendations
                  1.a, 1.b, and 1.c will not prevent future contracting actions from containing both
                  progress payments and PBPs. Therefore, we will make a specific request that the
                  DoD IG Quality Assurance and Report Follow-up Division monitor the ACC–Warren
                  actions to ensure that ACC–Warren fully adhered to FAR and DFARS contract
                  financing guidance.



18 │ Report No. DODIG-2014-039
                                                                                                  Finding



            d.	 Direct contracting officials to review the financing terms and payment
              histories on contracts W56HZV‑11‑C‑C001 and W56HZV‑11‑C‑C002
              and (1) initiate appropriate contracting actions to eliminate
              additional financing payments authorized in addition to progress
              payments; (2) recover the amount of any financing payments to
              date that exceed the total contract cost percentage limitations
              authorized by the contract financing provisions that are proper
              for each contract; and (3) remove improper contract deliverables
              that exist to permit a means for additional contract financing.

            e.	Monitor and ensure contracting officials comply fully with the
              direction given in Recommendation 1.d.


Army Contracting Command–Warren Comments
The Executive Director, Army Contracting Command–Warren partially agreed
with Recommendation 1.d and stated that no additional action is required on
this recommendation. He did agree with Recommendation 1.e and stated that
ACC–Warren will comply as indicated in his response to Recommendation 1.d.
Specifically, the Executive Director stated that ACC–Warren performed a review on
the contract actions and determined that the contract terms do not permit unusual
contract financing or allow the contractors to receive PBPs in addition to progress
payments. He further stated that the GCV contracts were problematic from the
time of contract award because they did not include deliverables as liquidation
points. The Executive Director stated that without including deliverables in the
contracts the contractors would not be able to receive any type of payment for
contract execution and the Government could not liquidate the progress payments
until contract completion. He further stated that despite a former ACC–Warren
PCO’s memorandum, which suggested that PBPs in addition to progress payments
were issued to the contactor, this did not occur. The Executive Director stated that
ACC–Warren personnel will ensure that financing other than progress payments is
not authorized on the GCV contracts.

The Executive Director stated that the contractors have not received progress
payments that exceed the total contract cost percentage limitations authorized by
the proper contract pricing provisions and that no improper deliverables were
added to the contracts as a means of providing additional contract financing.  He stated
that both contractors have received payment for all deliverables included on the
GCV contracts except for the data deliverables and the reports resulting from the
preliminary design review.    He further stated that the work performed between




                                                                              Report No. DODIG-2014-039 │ 19
Finding



                  December 2013 and the end of the period of performance, June 4, 2014, will
                  consist of unpriced change orders issued in contract modification P00019. He also
                  stated that the contractors would be unwilling to sign a bi-lateral contract
                  modification removing payment for the preliminary design review and if
                  ACC–Warren issued a unilateral contract modification the contractor would be able
                  to file an actionable claim for monies owed.  The Executive Director stated that
                  contract modifications P00011, P00014, and P00021 are legally binding and
                  therefore, it would be difficult for ACC–Warren to defend against any claim filed
                  by the contractors. He included attachments of the contract deliverables and
                  contractor payment detail to support his statements.


                  Our Response
                  Comments from the Executive Director, Army Contracting Command–Warren on
                  Recommendations 1.d and 1.e did not adequately address the recommendations
                  because he disagreed with the conclusions reached in the audit. Specifically,
                  the Executive Director concluded that ACC–Warren did not permit unusual
                  contract financing by awarding PBPs in addition to awarding progress payments.
                  We disagree with the conclusions reached by the Executive Director with respect
                  to contract financing, which are not supported by the documentation provided.
                  For example, modification P00011 and P00014 authorized current customary
                  progress payments be supplemented with additional financing payments for the
                  successful completion of events, to include a payment plan for event completion.
                  In     addition,   ACC–Warren   personnel    also      issued   internal   memorandums
                  that classified the additional financing payments established in the contract
                  modifications as a “Performance Based Payment scheme.”  As discussed in the body
                  of the report, while the wording in modification P00021 stated the additional
                  events were deliverables in the GCV contracts, the number of proper deliverables
                  did not change from the original contracts, which remained only one per contract.
                  The additional events added in the contract modifications were included in the
                  original GCV contracts under the Contract Data Requirements List. This contract
                  line item is a “not separately priced” deliverable. In addition, DFARS 204.7106,
                  “Contract modifications,” states that if new items are added through a contract
                  modification, the contracting officer is required to create a new line item or identify
                  new items under existing contract line item numbers. However, the PCO did not
                  establish new line items or change the number of deliverables under the
                  one contract line item number. Therefore, the additional events included in the
                  modifications were in effect PBPs.




20 │ Report No. DODIG-2014-039
                                                                                                 Finding



In addition, the Executive Director’s comments that the contactor would not
receive payment unless ACC–Warren added more liquidation events is not accurate.
Specifically, over the life of the contract, the two contractors were authorized to
request up to $640.3 million in progress payments, assuming the contractor
incurred the necessary costs. Prior to the contractors receiving payment for the
additional liquidation events, BAE and GDLS had actually received $191.6 million of
the $640.3 million in authorized progress payments. Therefore, the additional
liquidation events were not needed for the contractors to receive payment.

Based on the fact that the contract is less than six months from completion, and
DPAP comments state that they will focus on future contracts, we no longer request
that ACC–Warren take any action on W56HZV-11-C-C001 and W56HZV-11-C-C002.

      2.	   We recommend that the Director, Defense Pricing, Office of the Under
            Secretary of Defense for Acquisition, Technology, and Logistics, perform
            a review of contracts W56HZV-11-C-C001 and W56HZV‑11‑C‑C002
            to ensure that the contracting officer’s actions in response to
            Recommendation 1.d comply with FAR requirements for customary
            contract financing.


DPAP Comments
The Director, Defense Procurement and Acquisition Policy agreed with the
recommendation and requested the action be re-assigned from his office to the
Director, Defense Pricing. He stated the Director, Defense Pricing in concert with
the Defense Contract Management Agency will review the GCV contractors;
specifically, modifications P00011, P00014, and P00021. He also stated that the
Director, Defense Pricing, intends to work with the Army to review future
modifications to ensure compliance with FAR and DFARS requirements and limit
the contractors to financing needed.


Our Response
Comments from the Director, Defense Procurement and Acquisition Policy addressed
all of the specifics of the recommendation, and no additional comments are required.
Since the Director, Defense Procurement and Acquisition Policy coordinated with
the Director, Defense Pricing to implement the recommendation we are not
requesting additional comments.




                                                                             Report No. DODIG-2014-039 │ 21
Appendix




                  Appendix
                  Scope and Methodology
                  We conducted this performance audit from March 2013 through October  2013
                  in    accordance       with     generally      accepted     Government        auditing       standards.
                  Those standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our finding and
                  conclusions based on our audit                  objective. We          believe that    the evidence
                  obtained provides a reasonable basis for our finding and conclusions based on
                  our audit objective.

                  To accomplish our audit objective, we interviewed contracting personnel from
                  the Army,        Defense Contract Management Agency, and OSD. We obtained and
                  reviewed FAR Part 32, “Contract Financing,” FAR Subpart 32.5, “Progress
                  Payments Based on Costs,” and DFARS Subpart 232.5, “Progress Payments Based
                  on Costs,” as they relate to contract financing and progress payments.

                  Specifically, we interviewed PCOs, contract specialists, administrative contracting
                  officers, and a legal advisor for the ACC–Warren contracts and obtained
                  documentation         such      as      contract     solicitations,       contract     modifications,
                  coordination between the Army and the contractor, and payment data from
                  the Mechanization of Contract Administration Services system to determine how
                  the progress payments were negotiated and paid. We also reviewed progress
                  payment        requests     submitted      through       Wide   Area     Workflow      to    determine
                  the amounts requested to be paid. In addition, we obtained and reviewed
                  the    contracts     and      supporting      documentation       to    determine      whether    they
                  were     in    compliance      with     FAR    Subpart     32.5    and     DFARS      Subpart    232.5.

                  Sample         Selection.     We     obtained      the    Defense       Finance    and      Accounting
                  Service–Columbus Mechanization of Contract Administration Services records,
                  which contained $33.3 billion in obligated progress payment contracts through
                  March 30, 2013.           We nonstatistically selected five progress payment contracts at
                  ACC–Warren for our sample. Specifically, we selected the five contracts based on
                  high-dollar and small business contracts. We added an additional ACC–Warren
                  contract to our sample when our audit site visit revealed a systemic issue with the
                  GCV contract.  The contracts were awarded from FY 2011 through FY 2012 and
                  were solely funded by DoD.  Due to a change in audit priorities, we modified the




22 │ Report No. DODIG-2014-039
                                                                                                      Appendix



scope of the audit and reported on issues identified with the two GCV contracts.
The other four contracts in our sample did not contain the issues identified in
the GCV contracts, and therefore, our report did not address these contracts.


Use of Computer-Processed Data
We    used    computer-processed      data     from   the      Mechanization   of   Contract
Administration Services system to determine our universe and select our
sample contracts. We also used computer-processed data from the Wide Area
Workflow system. We assessed the reliability of the data by ensuring that
the computer‑processed data from our sample selection was supported by
independent documentation. From this testing, we determined that the data
were sufficiently reliable for the purposes of our analysis.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.


Prior Coverage
During the last 5 years, the Naval Audit Service issued one report discussing
the authorization and administration of progress payments. Naval Audit Service
reports are not available over the Internet.


Navy
Report No. N2011-0057, “Incentive and Progress Payments at Naval Supply Systems
Command,” September 7, 2011




                                                                                    Report No. DODIG-2014-039 │ 23
Management Comments




                  Management Comments
                  Defense Procurement and Acquisition Policy
                                                                 Final Report
                                                                  Reference




                                                                  Redirected
                                                               Recommendation 2




24 │ Report No. DODIG-2014-039
                                       Management Comments



U.S. Army Contracting Command–Warren




                                       Report No. DODIG-2014-039 │ 25
Management Comments



                  U.S. Army Contracting Command–Warren (cont’d)




26 │ Report No. DODIG-2014-039
                                                Management Comments



U.S. Army Contracting Command–Warren (cont’d)




                                            Report No. DODIG-2014-039 │ 27
Management Comments



                  U.S. Army Contracting Command–Warren (cont’d)




28 │ Report No. DODIG-2014-039
                                                Management Comments



U.S. Army Contracting Command–Warren (cont’d)




                                            Report No. DODIG-2014-039 │ 29
Management Comments



                  U.S. Army Contracting Command–Warren (cont’d)




30 │ Report No. DODIG-2014-039
                                                Management Comments



U.S. Army Contracting Command–Warren (cont’d)




                                            Report No. DODIG-2014-039 │ 31
Management Comments



                  U.S. Army Contracting Command–Warren (cont’d)




32 │ Report No. DODIG-2014-039
                                                Management Comments



U.S. Army Contracting Command–Warren (cont’d)




                                            Report No. DODIG-2014-039 │ 33
Management Comments



                  U.S. Army Contracting Command–Warren (cont’d)




34 │ Report No. DODIG-2014-039
                                                                               Acronyms and Abbreviations




Acronyms and Abbreviations
ACC–Warren U.S. Army Contracting Command–Warren
       BAE BAE Systems Land and Armaments
     DFARS Defense Federal Acquisition Regulation Supplement
      DPAP Defense Procurement and Acquisition Policy, Office of the Under Secretary
           of Defense for Acquisition, Technology, and Logistics
       FAR Federal Acquisition Regulation
       GCV Ground Combat Vehicle
      GDLS General Dynamics Land Systems Inc.
       OSD Office of the Under Secretary of Defense
       PBP Performance-Based Payment
       PCO Procurement Contracting Officer
       PGI Procedures, Guidance, and Information




                                                                                       Report No. DODIG-2014-039 │ 35
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
